XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVENUE, SUITE 11000
SAN FRANCISCO, CA 94102-7004

Public: (415) 510-4400
Telephone: (415) 510-3896
Facsimile: (415) 703-2552
E-Mail: Josh.Patashnik@doj.ca.gov

March 16, 2021
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

RE:

Request for extension of time to file response to petition
Balbuena v. Cates
S. Ct. No. 20-1207

Dear Mr. Harris:
I am counsel for the respondent in this case. Petitioner filed his petition for a writ of
certiorari on February 26, 2021. According to the online docket and pursuant to Rule 15.3 of the
Rules of this Court, a response is currently due on April 1, 2021. Pursuant to Rule 30.4,
respondent respectfully requests that the time for filing a response be extended by 30 days,
making the response due Monday, May 3, 2021.
This is respondent’s first request for an extension of time to file a response. Good cause
exists for the requested extension. I did not represent respondent in this case in the district court
or court of appeals, and thus require sufficient time to familiarize myself with the relevant legal
issues and record. Apart from this case, I represent the State of California in several other
matters that will require me to devote substantial amounts of time in the coming weeks. In
addition, the response must be reviewed by multiple attorneys within the California Department
of Justice. An extension of time would better enable preparation of a response that would be
most helpful to the Court.
Accordingly, respondent respectfully requests that the time for filing a response to the
petition for writ of certiorari be extended by 30 days, making the response due Monday, May 3,
2021. Counsel for the petitioner, David O’Neil, has informed me by email that petitioner
consents to this request “on the understanding and expectation that the opposition brief would be
filed on or before May 3.”

March 16, 2021
Page 2

Sincerely,
/s/ Joshua Patashnik
JOSHUA PATASHNIK
Deputy Solicitor General
For

XAVIER BECERRA
Attorney General

